f

L

I

0 ORIGINAL
t

Supreme Court, U.S.
FILED

gbttpreme Court of tljc finiteir States

JUL 1 5 2021
OFFICE OF THE CLERK

%

I
MIHRAN MELKONYAN,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

r

Mihran Melkonyan
Petitioner
72465-097
P.O. Box 9
Mendota, CA 93640

I

JUL 2 0 2021
°f,eg|.?.fcouRcTrul

QUESTION PRESENTED
1.)

Whether, as the Courts of Appeals for the Third1 and Sixth2 Circuits have held, in

conflict with the decision below3 and decisions of the Fifth4 and Eleventh5 Circuits, this Court’s
Kisor6 decision proscribes the federal courts from granting “Auer7 deference” to the Commentary
and Application Notes to the Sentencing Guidelines only if a regulation is genuinely ambiguous
and, even then, not when the reasons for that presumption do not apply or when countervailing
reasons outweigh them?

1 United States v. Nasir, 982 F.3d 144 * | 2020 U.S. App. LEXIS 37489 ** (3rd Cir. 12-1-20).
2 See United States v. Riccardi, 989 F.3d 476, 484 (6th Cir. 2021).
3 United States v. Melkonyan, 831 Fed. Appx. 319-320; 2020 U.S. App. LEXIS 39305 **2 (9th
Cir. 12-15-20). (Appendix A)
4 United States v. Cruz-Flores, 799 Fed. Appx. 245 *246 | 2020 U.S. App. LEXIS 9136 **3-4
(5th Cir. 3-24-20) (“Kisor did not discuss the Sentencing Guidelines”).
5 United States v. Isaac, 987 F.3d 980 * | 2021 U.S. App. LEXIS 3263 ** (11th Cir. 2-5-21) (“The
instruction in the commentary that courts should apply [U.S.S.Gj § 2G2.1(b)(5) broadly and
functionally guides our analysis.”) (citing Stinson v. United States, 508 U.S. 36, 38, 113 S. Ct.
1913, 123 L. Ed. 2d 598 (1993))
6 Kisor v. Wilkie, 139 S. Ct. 2400, 2416, 204 L. Ed. 2d 841 (2019).
7 Auer v. Robbins, 519 U.S. 452, 461, 117 S. Ct. 905,137 L. Ed. 2d 79 (1997).
i

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
The caption of the case in this Court contains the names of all parties to the proceedings
in the United States Court of Appeals for the Ninth Circuit.
More specifically, the Petitioner Mihran Melkonyan and the Respondent United States of
America are the only parties. Neither party is a company, corporation, or subsidiary of any
company or corporation.

ii

TABLE OF CONTENTS

Question Presented

i

List of Parties to the Proceedings
in the Courts Below........

ii

Table of Contents

iii

Table ofAuthorities,

v

Petition for a Writ of Certiorari

1

Opinions Below

1

Statement of Jurisdiction

3

Constitutional Provisions,
Treaties, Statutes, Rules,
and Regulations Involved

4

Statement of the Case

10

Reasons for Granting the Writ

14

1.)

1A.)

IB.)

THIS COURT SHOULD GRANT MR. MELKONYAN’S PETITION
FOR WRIT OF CERTIORARI TO RESOLVE A REMAINING
CONFLICT AMONG THE UNITED STATES COURTS OF
APPEALS AS TO WHETHER AND WHEN TO GRANT AUER
DEFERENCE TO THE COMMENTARY AND APPLICATION
NOTES TO THE UNITED STATES SENTENCING GUIDELINES.....

14

Subsequent To Kisor v. Wilkie, The Federal Courts of Appeals Still
Remain Divided As To Whether And When To Grant Auer Deference
To The Commentary And Application Notes To The Sentencing
Guidelines..............................................................................................

14

But For The Lower Court’s Presumption Of Deference, The “Loss” In
This Case Would Have Been As Low As The $1,418,959 Documented
By American Express Instead Of The $59,956,500 Determined By The
Unlawful Application Note 3(F)(i)..........................................................

16

Conclusion

24
iii

Appendix

25

USCA Opinion Dated 12-15-20

A

USDC Judgment & Commitment Order Entered 1-22-19

B

USCA Denial of Rehearing Dated 2-23-21

C

USDC Order Denying Objections to Presentence Report Entered 1-4-19

D

USDC Order Denying Motion for New Trial Entered 10-17-18.

E

USDC Order Denying 2255 Without Prejudice Entered 3-27-18................

F

USCA Order Denying Remand for 3582 Ruling in USDC Entered 5-26-20

G

USDC Order Denying 3582 Motion Entered 4-27-20

H

iv

TABLE OF AUTHORITIES
Page:
Cases
Auer v. Robbins,
519 U.S. 452, 461, 117 S. Ct. 905,
137 L. Ed 2d 79 (1997)

i, 13,17, 19

Bowles v. Seminole Rock & Sand Co.,
325 U.S. 410, 414, 65 S. Ct. 1215,
89 L. Ed 1700(1945)..................

19

Hoctor v. U.S. Dep t ofAgric.,
82 E3d 165, 169-71 (t Cir. 1996)

22

Kisorv. Wilkie,
139 S. Ct. 2400, 2414-18,
204 L. Ed 2d 841 (2019)

20

Kisorv. Wilkie,
139 S. Ct. 2400, 2416,
204 L. Ed 2d 841 (2019)

passim

Lawrence v. Chater,
516 U.S. 163,167-68, 133 L. Ed 2d 545,
116 S. Ct. 604 (1996)

24

MCI Telecomms. Corp. v. Am. Tel. & Tel. Co.,
512 U.S. 218, 225-29, 114 S. Ct. 2223,
129 L. Ed. 2d 182 (1994)

22

v

Mistretta v. United States,
488 U.S. 361, 384-85, 109 S. Ct. 647,
102 L. Ed. 2d 714 (1989)

20

Perez v. Mortg. Bankers Ass’n,
575 U.S. 92, 95-97, 135 S. Ct. 1199,
191 L. Ed. 2d 186 (2015)

22

Puckett v. United States,
556 U.S. 129,135, 129 S. Ct. 1423,
173 L. Ed. 2d 266 (2009)

15, 19

Rosales-Mireles v. United States,
138 S. Ct. 1897, 1907-08,
201 L. Ed 2d 376 (2018)

18

See Catholic Health Initiatives v. Sebelius,
617 F. 3d 490, 495,
393 U.S. App. D.C. 1 (D.C. Cir. 2010)

22

Stinson v. United States,
508 U. S. 36, 44-45, 113 S. Ct. 1913,
123 L. Ed. 2d 598 (1993)

15

Stinson v. United States,
508 US.

, and [n. ],

123 L.Ed.2d 598, 605 and [n. 2],
113 S.Ct. 1913 (1993)

16

vi

Stinson v. United States,
508 U.S. 36, 38, 113 S. Ct. 1913,
123 L. Ed. 2d 598 (1993)

i, 15

Stinson v. United States,
508 U.S. 36 40-41, 113 S. Ct. 1913,
123 L. Ed 2d 598 (1993)

18

United States v. Cruz-Flores,
799 Fed. Appx. 245 *246 |
2020 U.S. App. LEXIS 9136 **3-4 (5th Cir. 3-24-20)

i, 15

United States v. Ednie,
707 F. App’x 366, 371-72 (6h Cir. 2017)

19

United States v. Havis,
927 F.3d 382, 385-86 (6th Cir. 2019)
(en banc)

18

United States v. Isaac,
987 F.3d 980 *
2021 U.S. App. LEXIS 3263 ** (11th Cir. 2-5-21).

i, 15

United States v. Jarman,
144 F. 3d 912, 914 (6lh Cir. 1998)

20

United States v. Jones,
641 F.3d 706, 712 (6th Cir. 2011)

18

vii

United States v. Melkonyan,
831 Fed. Appx. 319 *;
2020 U.S. App. LEXIS 39305 **

Cir. 12-15-20)

i, 12, 16, 17

United States v. Nasir,
982 F.3d 144 *
2020 U.S. App. LEXIS 37489 ** (3rd Cir. 12-1-20)

i, 15

United States v. Nasir,
982 F.3d 144, 158 (3d Cir. 2020) (en banc)

21

United States v. Riccardi,
989 F.3d 476, 479 (6th Cir. 2021)

17

United States v. Riccardi,
989 F.3d 476, 481, 485-87, 490 (6th Cir. 2021)

23

United States v. Riccardi,
989 F.3d 476, 484 (6th Cir. 2021)

i, 15, 17

United States v. Rothwell,
387F.3d 579, 582 (6th Cir. 2004)

18

United States v. Sands,
948 F.3d 709, 713-14 (6lh Cir. 2020),

21

United States v. Stubblefield,
682 F.3d502, 510 (6th Cir. 2012).....

18

United States v. Thomas,
933 F.3d 605, 608 (6th Cir. 2019)

18

viii

United States v. Warshak,
631 F.3d 266, 328 (6th Cir. 2010)

18

United States v. Zabawa,
719 F.3d555, 559 (6,h Cir. 2013)

21

Statutes
18 U.S.C. § 1341

4, 10, 11, 16

18 U.S.C. § 1343.

4, 10, 11, 16

18 U.S.C. §3582(c)(l)(A)(i)

2

28 U.S.C. § 1254(1)

3

28 U.S.C. § 994(a)(1)

18

28 US. C. § 994(x)

20

Sentencing Reform Act of1984,
Pub. L. 98-473, Title II, ch. II, 98 Stat. 1987.

18

Sentencing Reform Act, § 235(a)(1),
98 Stat. at 2031-32; 28 U.S.C. § 994(p)

19

Other Authorities
18 U.S.C. Appendix.

15, 23

9 Oxford English Dictionary
37 (2ded. 1989)

21

American Heritage Dictionary ofthe
English Language 1063 (3d ed 1992)

21

U.S.C.A. Fifth Amendment

4

US.S.G § 2B1.1..............

passim
ix

U.S.S.G § 2B1.1 cmt. n.3(A)(iii).

21

U.S.S.G § 2B1.1 cmt. nn.1-8 (1987)

19

U.S.S.G §2B1.1(b)(1).

21

U.S.S.G §2B1.1(b)(2).

11
passim

U.S.S.G § 2B1.1, Commentary, Note 3(F)(i)
U.S.S.G § 2G2.1 (b)(5)

i, 15

Webster’s New World College Dictionary
799 (3d ed. 1996)

21

Webster’s New World College Dictionary,
supra, at 799.

21

Webster’s Third New International Dictionary
1338 (1986)

21

Rules
Fed. R. Crim. P. 52.

9

Supreme Court Rule 10

14

x

PETITION FOR A WRIT OF CERTIORARI
Mihran Melkonyan, the Petitioner herein, respectfully prays that a writ of certiorari issue
to review the judgment of the United States Court of Appeals for the Ninth Circuit, entered in the
above entitled case on 12-15-20.
OPINIONS BELOW
The 12-15-20 opinion of the Court of Appeals for the Ninth Circuit, whose judgment is
herein sought to be reviewed, is an unpublished decision reported at 831 Fed. Appx. 319 *; 2020
U.S. App. LEXIS 39305 ** and is reprinted in the separate Appendix A to this Petition.
A petition for rehearing was timely filed and was denied by the Court of Appeals for the
Ninth Circuit on 2-23-21. This opinion is an unpublished decision reported at 2021 U.S. App.
LEXIS 5304 and is reprinted in the separate Appendix C to this Petition.
The prior opinion and judgment (Judgment & Commitment Order) of the United States
District Court for the Eastern District of California, was entered on 1-22-19, is an unpublished
decision, and is reprinted in the separate Appendix B to this Petition.
The prior opinion and judgment of the United States District Court for the Eastern
District of California denying Mr. Melkonyan’s objections to the presentence report was entered
on 1-4-19, is an unpublished oral order handed down at sentencing and is reprinted in the
separate Appendix D to this Petition.
The prior opinion and judgment of the United States District Court for the Eastern
District of California denying Mr. Melkonyan’s motion for new trial was entered on 10-17-18, is
an unpublished decision, and is reprinted in the separate Appendix E to this Petition.
The prior opinion and judgment of the United States District Court for the Eastern
District of California denying Mr. Melkonyan’s 28 U.S.C. § 2255 motion without prejudice was
1

entered on 3-27-18, is an unpublished decision, and is reprinted in the separate Appendix F to
this Petition.
o--

The prior opinion and judgment of the United States Court of Appeals for the Ninth
Circuit, denying remand for a ruling on Mr. Melkonyan’s 18 U.S.C. § 3582(c)(l)(A)(i) motion
for compassionate release in the district court was entered on 5-26-20, is an unpublished decision
reported at 2020 U.S. App. LEXIS 16702 and is reprinted in the separate Appendix G to this
Petition.
The prior opinion and judgment of the United States District Court for the Eastern
District of California denying Mr. Melkonyan’s 18 U.S.C. § 3582(c)(l)(A)(i) motion for lack of
jurisdiction was entered on 4-27-20, is an unpublished decision reported at 2020 U.S. Dist.
LEXIS 79091 and is reprinted in the separate Appendix H to this Petition.

2

STATEMENT OF JURISDICTION
The judgment of the Court of Appeals was entered on 12-15-20. A petition for rehearing
was timely filed and was denied by the Court of Appeals for the Ninth Circuit on 2-23-21. The
jurisdiction of this Court is invoked pursuant to 28 U.S.C. § 1254(1).

3

CONSTITUTIONAL PROVISIONS. TREATIES. STATUTES.
RULES AND REGULATIONS INVOLVED
The Fifth Amendment to the Constitution of the United States provides in relevant part:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury... nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a witness against himself, nor be deprived
of life, liberty, or property, without due process of law ...Id.
18 U.S.C. § 1341 provides:
§1341. Frauds and swindles
Whoever, having devised or intending to devise any scheme or artifice to defraud,
or for obtaining money or property by means of false or fraudulent pretenses,
representations, or promises, or to sell, dispose of loan, exchange, alter, give
away, distribute, supply, or furnish or procure for unlawful use any counterfeit or
spurious coin, obligation, security, or other article, or anything represented to be
or intimated or held out to be such counterfeit or spurious article, for the purpose
of executing such scheme or artifice or attempting so to do, places in any post
office or authorized depository for mail matter, any matter or thing whatever to be
sent or delivered by the Postal Service, or deposits or causes to be deposited any
matter or thing whatever to be sent or delivered by any private or commercial
interstate carrier, or takes or receives therefrom, any such matter or thing, or
knowingly causes to be delivered by mail or such carrier according to the
direction thereon, or at the place at which it is directed to be delivered by the
person to whom it is addressed, any such matter or thing, shall be fined under this
title or imprisoned not more than five years, or both. If the violation affects a
financial institution, such person shall be fined not more than $ 1,000,000 or
imprisoned not more than 30 years, or both. Id.
18 U.S.C. § 1343 provides:
§ 1343. Fraud by wire, radio, or television
Whoever, having devised or intending to devise any scheme or artifice to defraud,
or for obtaining money or property by means of false or fraudulent pretenses,
representations, or promises, transmits or causes to be transmitted by means of
wire, radio, or television communication in interstate or foreign commerce, any
writings, signs, signals, pictures, or sounds for the purpose of executing such
scheme or artifice, shall be fined under this title or imprisoned not more than five
years, or both. If the violation affects a financial institution, such person shall be
fined not more than $ 1,000,000 or imprisoned not more than 30 years, Or both.
Id.
4

18 U.S.C. Appx § 2B1.1 provides, inter alia, as follows:
§ 2B1.1. Larceny, Embezzlement, and Other Forms of Theft; Offenses Involving
Stolen Property; Property Damage or Destruction; Fraud and Deceit; Forgery;
Offenses Involving Altered or Counterfeit Instruments Other than Counterfeit
Bearer Obligations of the United States
(a) Base Offense Level:
(1) 7, if (A) the defendant was convicted of an offense referenced to this
guideline; and (B) that offense of conviction has a statutory maximum term of
imprisonment of 20 years or more; or
(2) 6, otherwise.
(b) Specific Offense Characteristics
(1) If the loss exceeded $6,500, increase the offense level as follows:
Loss (Apply the Greatest):

Increase in Level

(A) $6,500 or less
no increase
(B) More than $6,500 add 2
(C) More than $ 15,000
add 4
(D) More than $40,000
add 6
(E) More than $95,000
add 8
(F) More than $150,000
add 10
(G) More than $250,000
add 12
(H) More than $550,000
add 14
(I) More than $1,500,000
add 16
(J) More than $3,500,000
add 18
(K) More than $9,500,000 add 20
(L) More than $25,000,000 add 22
(M) More than $65,000,000 add 24
(N) More than $150,000,000 add 26
(O) More than $250,000,000 add 28
(P) More than $550,000,000 add 30.
(2) (Apply the greatest) If the offense—
(A) (i) involved 10 or more victims; (ii) was committed through mass-marketing;
or (iii) resulted in substantial financial hardship to one or more victims, increase
by 2 levels;
(B) resulted in substantial financial hardship to five or more victims, increase by 4
levels; or
(C) resulted in substantial financial hardship to 25 or more victims, increase by 6
levels.
(3) If the offense involved a theft from the person of another, increase by 2 levels.
(4) If the offense involved receiving stolen property, and the defendant was a
person in the business of receiving and selling stolen property, increase by 2
levels.
5

(5) If the offense involved theft oft damage to, destruction oft or trafficking in,
property from a national cemetery or veterans’ memorial, increase by 2 levels.
(6) If (A) the defendant was convicted of an offense under 18 U.S.C. § 1037; and
(B) the offense involved obtaining electronic mail addresses through improper
means, increase by 2 levels.
(7) If (A) the defendant was convicted of a Federal health care offense involving a
Government health care program; and (B) the loss under subsection (b)(1) to the
Government health care program was (i) more than $1,000,000, increase by 2
levels; (ii) more than $7,000,000, increase by 3 levels; or (iii) more than
$20,000,000, increase by 4 levels.
(8) (Apply the greater) If—
(A) the offense involved conduct described in 18 U.S.C. § 670, increase by 2
levels; or
(B) the offense involved conduct described in 18 U.S.C. § 670, and the defendant
was employed by, or was an agent oft an organization in the supply chain for the
pre-retail medical product, increase by 4 levels.
(9) If the offense involved (A) a misrepresentation that the defendant was acting
on behalf of a charitable, educational, religious, or political organization, or a
government agency; (B) a misrepresentation or other fraudulent action during the
course of a bankruptcy proceeding; (C) a violation of any prior, specific judicial
or administrative order, injunction, decree, or process not addressed elsewhere in
the guidelines; or (D) a misrepresentation to a consumer in connection with
obtaining, providing, or furnishing financial assistance for an institution of higher
education, increase by 2 levels. If the resulting offense level is less than level 10,
increase to level 10.
(10) If (A) the defendant relocated, or participated in relocating, a fraudulent
scheme to another jurisdiction to evade law enforcement or regulatory officials;
(B) a substantial part of a fraudulent scheme was committed from outside the
United States; or (C) the offense otherwise involved sophisticated means and the
defendant intentionally engaged in or caused the conduct constituting
sophisticated means, increase by 2 levels. If the resulting offense level is less than
level 12, increase to level 12.
(11) If the offense involved (A) the possession or use of any (i) device-making
equipment, or (ii) authentication feature; (B) the production or trafficking of any
(i) unauthorized access device or counterfeit access device, or (ii) authentication
feature; or (C)(i) the unauthorized transfer or use of any means of identification
unlawfully to produce or obtain any other means of identification, or (ii) the
possession of 5 or more means of identification that unlawfully were produced
from, or obtained by the use oft another means of identification, increase by 2
levels. If the resulting offense level is less than level 12, increase to level 12.
(12) If the offense involved conduct described in 18 U.S.C. § 1040, increase by 2
levels. If the resulting offense level is less than level 12, increase to level 12.
(13) If the defendant was convicted under 42 U.S.C. § 408(a), § 1011(a), or §
1383a(a) and the statutory maximum term of ten years’ imprisonment applies,
increase by 4 levels. If the resulting offense level is less than 12, increase to level
12.
6

1.8 U.S.C. Appx § 2BI.1 provides, inter alia, as follows:
§ 2BLL Larceny, Embezzlement and Other Forms o f Theft: Offenses Involving
Stolen Property; Property Damage or Destruction; Fraud and Deceit; Forgery;
Offenses Involving Altered or Counterfeit Instruments Other than Counterfeit
Bearer Obligations of the United States
(a) Base Offense Level:
(1) 7, if (A) the defendant was convicted of an offense referenced to this
guideline: and (B) that offense of conviction has a statutory maximum term of
imprisonment of 20 years or more: or
(2) 6, otherwise,
(b) Specific Offense Characteristics
(1) If the loss exceeded $6,500, increase the offense level as follows:
Loss (Apply the Greatest):

Increase in Level

(A) $6,500 or less
no increase
(B) More than $6,500 add 2
(C) More than $15,000
add 4
( D) More than $40,000
add 6
(E) More than $95,000
add 8
(F) More than $150,000
add 10
(G) More than $250,000
add 1:2
(H) More than $550,000
add 14
(I) More than $1,500,000
add 16
(j) More than $3,500,000
add 18
(K) More than $9,500,000 add 20
(L) More than $25,000,000 add 22
(M) More than $65,000,000 add 24
(N) More than $150,000,000 add 26
fOV More than $250,000,000 add 28
(P) More than $550,000,000 add 30.
(2) (Apply the greatest) If the offense—
(A) (i) involved 10 or more victims; (ii) was committed through mass-marketing;
or (iii) resulted in substantial financial hardship to one or more victims, increase
by 2 levels;
(B) resulted in substantial financial hardship to five or more victims, increase by 4
levels; or
(C) resulted in substantial financial hardship to 25 or more victims, increase by 6
levels,
(31 If the offense involved a theft from the person of .another, increase by 2 levels.
(4) If the offense involved receiving stolen property, and the defendant was a
person in the business of receiving and selling stolen property, increase by 2
levels.
5

(5) If the offense involved theft of. damage to. destruction of, or trafficking in,
property from a national cemetery or veterans’ memorial, increase by 2 levels.
(6) If (A) the defendant was convicted of an offense under 18 U.S.C. § 1037; and
(B) the offense involved obtaining electronic mail addresses through improper
means, increase by 2 levels.
(7) If (A) the defendant was convicted of a federal health care offense involving a
Government health care program: and (B) the loss under subsection (b)(1) to the
Government health care program was (i) more than $1,000,000, increase by 2
levels: (ii) more than $7,000,000, increase by 3 levels; or (ill), more than
$20,000,000, increase by 4 levels.
(8) (Apply the greater) if—
(A) the offense involved conduct described in 18 U.S.C. § 670, increase' by 2
levels; or
(B) the offense involved conduct described in 18 U.S.C. § 670, and the defendant
was employed by, or was an agent of an organization in the supply chain for the
pre-retail medical product, increase by 4 levels.
(9) If the offense involved (A) a misrepresentation that the defendant was acting
on behalf of a charitable, educational religious, or political organization, or a
government agency; (B) a misrepresentation or other fraudulent action during the
course of a bankruptcy proceeding; (€) a violation of any prior, specific judicial
or administrative order, injunction, decree, or process not addressed elsewhere in
the guidelines; or (D) a misrepresentation to a consumer in connection with
obtaining, providing, or furnishing financial, assistance for an institution of higher
education, increase by 2 levels. If the resulting offense level is less than level 10,
increase to level 10.
(10) If (A) the- defendant relocated, or participated in relocating, a fraudulent
scheme to another jurisdiction to evade law enforcement or regulatory officials;
(B) a substantial part of a fraudulent scheme was committed, from outside the
United States; or <C) the offense otherwise involved sophisticated means and the
defendant mientionaiiy engaged in or caused the conduct constituting
sophisticated means, increase by 2 levels. If the resulting offense level is less than
level 12, increase to level 12.
(I!) if the offense involved (A) the possession or use of any (i) device-making
equipment, or (ii) authentication feature; (B) the production or trafficking of any
(i) unauthorized access device or counterfeit access device, or (ii) authentication
feature; or (C)(i) the unauthorized transfer or use of any means of identification
unlawfully to produce or obtain any other means of identification, or (ii) the
possession of 5 or more means of identification that unlawfully were produced
from, or obtained bv the use of another means of identification, increase by 2
levels. If the resulting offense level is less than level 12, increase to level 12.
02) I f the offense involved- conduct, described in 18 U.S.C. § 1040, increase by 2
le vels. If the resulting offense level is less than level 12. increase to level 12.
03) If the defendant was convicted under 42 U.S.C. $ 408(a), § 1011(a), or §
1383a(a) and the statutory maximum term of ten years’ imprisonment applies,
increase by 4 levels. If the resulting offense level is less than 12, increase to level
12.

6

(14) (Apply the greater) if me offense involved misappropriation of a trade secret
and the defendant knew or intended—
(A) that the trade secret would be transported or transmitted out of the United
States, increase by 2 levels; or
(B) that the offense would benefit a foreign government, foreign instrumentality;
or foreign agent, increase by 4 levels.
if subparagraph. <B> applies and the resulting offense level is less than level 14,
increase to level 14.
(15) If the offense, involved an organized scheme to steal or to receive stolen (A)
vehicles or vehicle parts; or (B) goods or chattels that are part of a cargo
shipment, increase by 2 levels. If the resulting offense level, is less than level 14,
increase to level 14.
(16) If the offense involved (A) the conscious or reckless risk of death or serious
bodily injury; or (B) possession of a dangerous weapon (including a firearm) in
connection with the offense, increase by 2 levels. If the .resulting offense level Is
less than level 14, increase to level 14.
(1-7) (Apply the greater) If—
(A) the defendant derived more than $1,000,000 in gross receipts from one or
more financial institutions as a result of the offense, increase by 2 levels; or
(B) the offense (i) substantially jeopardized the safety and soundness of a
financial institution; or (it) substantially endangered the solvency or financial
security of an organization that, at any time during the offense, (I) was a publicly
traded company; or (If) had 1.000 or more employees, increase by 4 levels.
(C) The cumulative adjustments from, application of both subsections (b)(2) and
(b)(17)(B) shall not exceed 8 levels, except as provided in subdivision (D).
(D) If the resulting offense level determined under subdivision. (A) or (B) is less
than level 24, increase to level 24.
(18) If (A) the defendant was convicted of an. offense under 18 U.S.C. § 1030, and
the offense involved an intent to obtain personal information, or (B) the offense
involved the unauthorized public dissemination of personal information, increase
bv 2 levels.
(19)
(A) (Apply the greatest) if the defendant was convicted of an offense under:
(i) 18 U.S.C. § 1030, and the offense involved a computer system used to
maintain or operate a critical infrastructure, or used by or for a government entity'
in furtherance of the administration of justice, national defense, or national
security, increase by 2 levels.
(ii) 18 U.S.C. § 103O(a)(5XA), increase by 4 levels.
(in) 18 U.S.C. § 1030, and the offense caused a substantial disruption of a critical
infettracfere, increase by 6 levels.
(B) If subdivision (AXIS) applies, and the offense level is less than level 24.
increase to level. 24.
(20) If the offense involved—
(A) a violation of securities law and, at the time of the offense, the defendant was
(i) an officer or a director of a publicly traded company; (ii) a registered broker or
7

dealer, or a person associated with a broker or dealer; or (iii) an investment
adviser, or a person associated with an investment adviser; or
(B) a violation of commodities law and, at the time of the offense, the defendant
was (i) an officer or a director of a futures commission merchant or an introducing
broker; (ii) a commodities trading advisor; or (iii) a commodity pool operator,
increase by 4 levels.
(c) Cross References
(1) If (A) a firearm, destructive device, explosive material, or controlled substance
was taken, or the taking of any such item was an. object of the offense; or (8) the
stolen property received, transported, transferred, transmitted, or possessed was a
firearm, destructive device, explosive material, or controlled substance, apply §
2D 1.1 (Unlawful Manufacturing, Importing, Exporting, or Trafficking (Including
Possession with Intent to Commit These Offenses); Attempt or Conspiracy). §
2D2.1 (Unlawful Possession; Attempt or Conspiracy), § 2KL3 (Unlawful
Receipt, Possession, or Transportation of Explosive Materials; Prohibited
Transactions Involving Explosive Materials), or § 2K2.I (Unlawful Receipt,
Possession, or Transportation of Firearms or Ammunition; Prohibited
Transactions Involving Firearms or Ammunition), as appropriate.
(2) If the offense involved arson, or property damage by use of explosives, apply
§ 2K1.4 (Arson; Properly Damage by Use of Explosives), if the resulting offense
level is greater than that determined above.
(3) If (A) neither subdivision (1) nor (2) of this subsection applies; (B) the
defendant was convicted under a statute proscribing false, fictitious, or fraudulent
statements or representations generally (e.g., 18 U.S.C. § 1001, § 1341, § 1342, or
§ 3343); and (C) the conduct set forth in the count of conviction establishes an
offense specifically covered by another guideline in Chapter Two (Offense
Conduct), apply that other guideline.
(4) If the offense involved a cultural heritage resource or a paleontological
resource, apply § 281.5 (Theft of. Damage to. or Destruction of Cultural
Heritage Resources or Paleontological Resources; Unlawful Sale, Purchase,
Exchange. Transportation, or Receipt of Cultural Heritage Resources or
Paleontological Resources), if the- resulting offense level is greater than that
determined above.
Commentary
Statutory Provisions: ... 18 U.S.C. §§ 1341-1344 ... For additional statutory
provision(s), see Appendix A (Statutory Index).
Application Notes:
**********

3. Loss Under Subsection (b)(1). This application note applies to the
determination of loss under subsection (b)(1).
(A) General Rule. Subject to the exclusions in subdivision (D), loss is the greater
of actual loss or intended loss.
(i) Actual Loss. “Actual loss" means the reasonably foreseeable pecuniary harm
that resulted from the offease.
(ii) Intended Loss. “Intended loss” (It means the pecuniary harm that the
defendant purposely sought to inflict; and (II) includes intended pecuniary harm
8

that would have been impossible or unlikely to occur (e.g., as in a government
sting operation, or an insurance fraud in which the claim exceeded the insured
value)...
**********

(F) Special Rules. Notwithstanding subdivision (A), the following special rules
shall be used to assist in determining loss hi the cases indicated:
(i) Stolen or Counterfeit Credit Cards and Access Devices; Purloined Numbers
and Codes. In a case involving any counterfeit access device or unauthorized
access device, loss includes any unauthorized charges made with the
counterfeit access device or unauthorized access device and shall be not less
than $500 per access device. However, if the unauthorized access device is a
means of telecommunications access that identifies a specific tefecoramunications
instrument or telecommunications account (including an electronic serial
number/mobile identification number (fiSN/MIN) pair), and that means was only
possessed, and not used, during the commission of the offense, loss shall be not
less than $100 per unused means. For purposes of this subdivision, “counterfeit
access device’’ and “unauthorized access device” have the meaning given those
terms in Application Note 10(A).
Id. U.S.S.G § 2B1.I (As amended Effective ... November I, 2018 (see Appendix C,
amendments 806 and 813). (emphasis added)
Fed. R. Grim. P. 52 provides:
Rule 52. Harmless Error and Plain Error.
(a) Harmless error. Any error, defect, irregularity or variance which does not
affect substantial rights shall be disregarded.
(b) Plain error. Plain errors or defects affecting substantial rights may be noticed
although they were not brought to the attention of the court. Id. (As amended Dec.
26,1944, eff. March 21, 1946.)

9

STATEMENT OF THE CASE
On or about 3-20-14 Mihran Melkonyan was charged with violation of 18 U.S.C. § 1343
(Wire fraud) (Counts 1-21); 18 U.S.C. § 1341 (Mali fraud) (Counts 22-23).
These charges arose from allegations that he took part in a scheme to charge small
charges of $15-$30 each against a large number (119,913) of individual American Express credit
cards whose numbers and data had been obtained by some individuals in Russia. American
Express ultimately calculated that the actual charges/losses totaled $1,418,959.00. (Transcript of
sentencing 1-4-19, page 5) (judgment & Commitment Order page 6) (Presentence Report,
paragraph 5) (Indictment 3-20-14) (Superceding Indictment 8-27-15).
He was arraigned on or about 4-16-15 at which time he pleaded not guilty to the charged
violations.
On or about 8-27-15, Mihran Melkonyan was charged in a superseding indictment with
violation of 18 U.S.C. § 1343 (Wire fraud) (Counts 1-24); 18 U.S.C. § 1341 (Mail fraud) (Counts
25-26).
He was rearraigned on or about 9-3-15 at which time he again pleaded not guilty to the
charged violations.
No motion to suppress was filed or litigated.
On or about 2-7-17 Mr. Melkonyan proceeded to trial. (Appendix B)
On 2-15-17, Mr. Melkonyan was found guilty by the jury as to violation of 18 U.S.C. §
1343 (Wire fraud) (Counts 1-24); 18 U.S.C. § 1341 (Mail fraud) (Counts 25-26).
When the Presentence Report was prepared, the Probation Officer recommended finding
a Total Offense Level 33 and a Criminal History of ill which resulted in a guideline sentencing
range 168-210 months. This guideline sentencing range was based on use of 111,049 credit cards
10

with individual charges of $15-$30 and American Express’ documentation of $1,418,959 in
fraudulent charges but then utilized U.S.S.G § 2B1.1, Commentary, Note 3(F)(i) with its $500
per card minimum calculation, which resulted in a 'loss' of $55,524,500. (Presentence Report,
paragraphs 22-23,32,40, 57-58).
On 1-4-19, Mr. Melkonyan appeared for sentencing. At sentencing, the government first
objected to the failure of the Presentence Report to include a 2 points enhancement under
U.S.S.G § 2B1.1(b)(2) based on 10 or more victims. (Transcript of sentencing, page 14) The
government attorney also objected to the total of 111,049 credit cards in the Presentence Report
and argued that the correct number should be changed to 119,913 cards with a Toss’ of
$59,956,500 based on U.S.S.G § 2B1.1, Commentary, Note 3(F)(i). (Transcript of sentencing.
pages 4-5)
Mr. Melkonyan, in turn, specifically objected to the use of the $500 per card
enhancement of U.S.S.G § 2B1.1, Commentary, Note 3(F)(i). (Transcript of sentencing, page 8)
The government attorney’s objections were granted by the district court but Mr.
Melkonyan’s objections were denied. (Transcript of sentencing, page 20)
On 1-4-19, Mr. Melkonyan was sentenced to 230 months plus 3 years supervised release,
$1,418,959 restitution, and $2,600 special assessment incarceration for violations of 18 U.S.C. §
1343 (Wire fraud) (Counts 1-24); 18 U.S.C. § 1341 (Mail fraud) (Counts 25-26). This sentence
represented a Total Offense Level 35, Criminal History 3, and the mid portion of the guideline
sentencing range of 210-262. (Transcript of sentencing pages 20-21) In spite of Mr.
Melkonyan’s specific objection, the Toss’ underlying the Total Offense Level was calculated
based on the $500 per card minimum of U.S.S.G § 2B1.1, Commentary, Note 3(F)(i) and totaled

11

$59,956,500 instead of the actual loss, documented by American Express, of $1,418,959.
(Appendix B)
But for the use of the $500 per card minimum of U.S.S.G § 2B1.1, Commentary, Note
3(F)(i), Mr. Melkonyan’s guideline sentencing range would have been 108-135 months instead of
210-262 months utilized by the district court. This is because he would have been subjected to 16
levels enhancement under U.S.S.G § 2Bl.l(b)(l)(I) instead of the 22 levels enhancement of
U.S.S.G § 2BI.l(b)(l)(L) based on actual loss of $1,418,959 instead of the enhanced loss of
$500 per card totaling $59,956,500 as set forth in U.S.S.G § 2B1.1, Commentary, Note 3(F)(i).
The judgment was entered on 1-22-19.
On 1-16-.1.9, a Notice of Appeal was filed. On direct appea l, counsel specifically argued.
inter alia:
The court erred in determining the amount of loss by multiplying the number of
American Express credit card numbers involved in the overall scheme by $500,
pursuant to application note 3(F)(i) to U.S.S.G § U.S.S.G § 2BL1
(Melkonyan USCA Brief, PDF pages 3, 29-32) (USCA 9 Docket #19-10026, Entry #12,1-14-20)
On 12-15-20, the Court of Appeals denied Mr. Melkonyan’s appeal, in denying the
appeal, the Court of Appeals simply presumed that the $500 per card enhancement of U.S.S.G §
2B1.1, Commentary, Note 3(F)(i) was valid and failed to make even the slightest determination
whether the regulation was ambiguous or whether reasons for the presumption that the regulation
was valid did or didn’t apply or whether countervailing reasons outweighed any kind of
deference to the regulation. The Court of Appeals, like the district court, failed to even mention
this Court’s Kisor decision or “Auer* deference”. United States v. Melkonyan, 831 Fed. Appx,
319-320; 2020 U.S. App. LEXIS 39305 **2 (9th Cir, 12-15-20). (Appendix A)

Kisor v. Wilkie, 139 S. Cf 2400, 2416, 204 L. Ed. 2d 841 (2019).
12

Counsel timely filed a petition for rehearing. On 2-23-21, the Court of Appeals denied
rehearing. United States v. Melkonyan, 2021 U.S. App. LEXIS 5304 (9lh Cir. 2-23-21)
(Appendix C)
Mr. Melkonyan demonstrates within that this Court should grant his Petition For Writ Of
Certiorari to resolve a remaining conflict among the United States courts of appeals as to whether
and when to grant Auer deference to the Commentary and Application Notes to the United States
Sentencing Guidelines,

2 Auer v. Robbins, 519 U.S. 452,461,127 S, Cf 905,137 L. Ed, 2d 79 (1997),
13

REASONS FOR GRANTING THE WRIT
1.)

THIS COURT SHOULD GRAN! MR. MELKONYAN’S PETITION
FOR WRIT OF CERTIORARI TO RESOLVE A REMAINING
CONFLICT AMONG THE UNITED STATES COURTS OF
APPEALS AS TO WHETHER AND WHEN TO GRANT AUER
DEFERENCE TO THE COMMENTARY AND APPLICATION
NOTES TO THE UNITED STATES SENTENCING GUIDELINES.

Supreme Court Rule 10 provides in relevant part as follows:
Role 10.
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
A review on writ of certiorari is not a matter of right, but of judicial
discretion. A petition for a writ of certiorari will be granted only when there are
special and important reasons therefor. The following, while neither controlling
nor &!ly measuring the Court’s discretion, indicate the character of reasons that
will be considered:
(a)
a United States court of appeals has rendered a decision in conflict
with the decision of another United States court of appeals on the same
matter; or has decided a federal question in a way in conflict with a state
court of last resort; or has so for departed from the accepted and usual
course of judicial proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise ofthis Court’s power of supervision... Id.
Supreme Court Rule 10(a).
IA.)

Subsequent To Kisor v. Wilkie, The Federal Courts of Appeals Still
Remain Divided As Ta Whether And When To Grant Aner Deference
To The Commentary And Application Notes To The Sentencing
Guidelines.

Two years ago, m Kisor v. Wilkie, 139 S. Ct. 2400, 2416, 204 L. Ed. 2d 841 (2019), this
Court clarified the scone of Auer (or sometimes, Seminole Rock) deference to agency
regulations. See Auer v. Robbins, 519 U.S. 452, 461, 117 S. Ct. 905, 137 L. Ed. 2d 79 (1997):
Bowles v. Seminole Rock & Sand Co., 325 U.S. 410,414,65 S. Ct. 1215, 89 L. Ed. 1700 (1945).
While Kisor, Auer, and Seminole Rock progressively clarified the scope of deference to “agency”
regulations, it’s been 25 years since this Court addressed the “Commentary” to the United States
14

Sentencing Guidelines, found in 18 U.S.C. Appendix. See Stinson v. United States, 508 U. S. 36,
44-45, 113 S. Ct. 1913, 123 L. Ed. 2d 598 (1993) (holding that the commentary's interpretation
of a guideline “must be given ‘controlling weight unless it is plainly erroneous or inconsistent
with the” guideline).
On its face, Stinson’s plain-error test seemed to require courts to give great deference to
the commentary. By way of analogy, the plain-error test that applies to unpreserved arguments on
appeal requires a legal error to "be clear or obvious, rather than subject to reasonable dispute."
Puckett v. United States, 556 U.S, 129, 135, 129 S. Ct. 1423, 173 L. Ed. 2d 266 (2009). See
United States v. Riccardi, 989 F.3d 476,484 (6lh Cir. 2021) (Construing Stinson).
While the Courts of Appeals for the Third3 and Sixth4 Circuits have held that this Court’s
Kisor decision proscribes the federal courts from granting “Auer deference” to the Commentary
and Application Notes to the Sentencing Guidelines only if a regulation is genuinely ambiguous
and, even then, not when the reasons for that presumption do not apply or when countervailing
reasons o utweigh them, perhaps because of the failure to specifically address the Commentary in
Kisor some of the lower courts ha ve declined to apply Kisor to the Commentary or Sentencing
Guidelines. Cf. United States v. Cruz-Flores, 799 Fed. Appx. 245 *246 [ 2020 U.S. App. LEXIS
9136 **3-4 (5lh Cir. 3-24-20) (“Kisor did not discuss the Sentencing Guidelines”); United States
v. Isaac, 987 F.3d 980 * I 2021 U.S. App. LEXIS 3263 ** (11* Cir. 2-5-21) (“The instruction in
the commentary that courts should apply [U.S.S.G j § 2G2.1(b)(5) broadly and functionally
guides our analysis.”) (citing Stinson v. United States, 508 U.S. 36, 38, 113 S. Ct. 1913, 123 L.
Ed. 2d 598 (1993)).

3 United States v. Nasir, 982F.3d 144 * 1 2020 U.S. App, LEXIS 37489 ** G^Cir. 12-1-20).
4 See United States v. Riccardi, 989 F.3d 476, 484 (6* Cir. 2021).
15

In the instant case, even though the question of the scope of deference to the Commentary
was specifically and directly presented to the Ninth Circuit Court of Appeals by Petitioner
Melkonyan5, the Court of Appeals simply presumed that the $500 per card enhancement of
U.S.S.G § 2B1.1, Commentary, Note 3(F)(i) was valid and foiled to make even the slightest
determination whether the regulation was ambiguous or whether reasons for the presumption that
the regulation was valid did or didn’t apply or whether countervailing reasons outweighed any
kind of deference to the regulation. The Court of Appeals, like the district court, foiled to even
mention this Court’s Kisor decision or “Auer deference”. United States v. Melkonyan, 831 Fed.
Appx. 319-320; 2020 U.S. App. LEXIS 39305 **2 (9th Cir. 12-15-20). (Appendix A)
The split in the circuits is clear cut and the opposing positions appear to be hardening
instead of harmonizing. The outcome of litigation should not depend on the location of the court
in which it occurs. These facts strongly militate for grant of certiorari. See: Stinson v. United
States, 508 U.S.
IB,)

,

, and fn. 1,123 L.Ed.2d 598, 605 and |n. 2], 113 S.Ct 1913 (1993).

Bat For The Lower CoarTs Presumption Of Deference, The “Loss” In
This Case Would Have Been As Low As The $1,418,959 Documented
By American Express Instead Of The $59,956,500 Determined By The
Unlawful Application Note 3(F)(1).

in Mr. Melkonyan’s case, as set forth above, he was sentenced to 230 months plus 3 years
supervised release, $1,418,959 restitution, and $2,600 special assessment incarceration for
violations of 18 U.S.C. § 1343 (Wire fraud) (Counts 1-24); 18 U.S.C § 1341 (Mail fraud)
(Counts 25-26). This sentence represented a Total Offense Level 35, Criminal History 3, and the
mid portion of the guideline sentencing range of 210-262. (Transcript of sentencing, pages 2021) in spite of Mr. Melkonyan’s specific objection, the ‘loss’ underlying the Total Offense Level

5 See Melkonvan USCA Brief PDF pages 3, 29-32. (USCA9 Docket #19-10026. Entry #12. I14-20)
16

was calculated based on the $500 per card minimum of U.S.S.G § 2B1.1, Commentary, Note
3(F)(i) and totaled $59,956,500 instead of the actual loss, documented by American Express, of
$1,418,959. (Appendix B)
On direct appeal, again over Mr. Melkonyan’s specific objection6, the Court of Appeals
simply presumed that the $500 per card enhancement of U.S.S.G § 2B1.1, Commentary, Note
3(F)(i) was valid and foiled to make even the slightest determination whether the regulation was
ambiguous or whether reasons for the presumption that the regulation was valid did or didn’t
apply or whether countervailing reasons outweighed any kind of deference to the regulation. The
Court of Appeals, like the district court, foiled to even mention this Court’s Kisor7 decision or
“Auer8 deference”. United States v. Melkonyan, 831 Fed. Appx. 319-320; 2020 U.S. App. LEXIS
39305 **2 (9th Cir. 12-15-20). (Appendix A)
In United States v. Riccardi, 989 F.3d 476, 484 (6<h Cir. 2021), the Sixth Circuit recently
remanded a case directly on point with that of Mr. Melkonyan. It was a case where a postal
employee had stolen 1,505 gift cards from the mail. Most of these gift cards had an average
value of about $35 for a total value of about $47,000. Instead of calculating her sentence based
on the actual loss of $47,000, the district court utilized the same U.S.S.G § 2BL1, Commentary,
Note 3(F)(i) that was utilized in Mr. Melkonyan’s case to increase her charged Toss’ to $500 per
card no matter its actual value or the victim's actual harm resulting in sentencing based on a total
loss amount of $752,500. United States v. Riccardi, 989 F.3d 476,479 (6th Cir. 2021).
In reversing and remanding, the Court of Appeals analyzed the case as follows:

6 (Melkonyan USCA Brief, PDF pages 3, 29-32) (IJSCA 9Boeket #19-10026, Entry #12, 1-1420)

1 Kisor v. Wilkie, 139 S. Ct 2400,2416, 204 L. Ed. 2d 841 (2019).
Auer v. Robbins, 519 U.S. 452,461,117 S. Ct. 905,137 L. Ed. 2d 79(1997).
17

8

The guideline for theft offenses—U.S.S.G § 2B1.1—starts with a base
offense level of 6. Id. § 2B 1.1 (a)(2). It then lists a variety of offense
characteristics that can affect this offense level, ranging from the number of
victims involved, id. § 2Bl.l(b)(2)(A)(i) [**6], to the possession of a firearm, id.
§ 2BI.l(b)(16)(B). As relevant here, courts must "increase the offense level" in
incremental amounts based on the "loss" from the offense. Id. § 2B1.1(b)(1). If
the loss is "[m]ore than $6,500," § 2B1.1 instructs courts to add 2 to the offense
level. Id. § 2B1.1(b)(1)(B). If the loss is "fmjore than $15,000," it instructs them
to add 4. Id. § 2Bl.l(b)(lXC). The guideline continues in this fashion up to a loss
amount of "fmjore than $550,000,000," for which it directs courts to increase the
offense level by 30. Id. § 2B 1.1 (b)(1)(F).
The government bears the burden to prove the amount of the loss by a
preponderance of the evidence. See, e.g., United States v. Jones, 641 E3d 706,
712 (6<h Cir. 2011); United States v. Rothwell, 387 F.3d 579, 582 (6th Cir. 2004).
We treat the district court’s “determination of the amount of loss” as a factual
finding and thus review it under a deferential cfear-error standard. United States v.
Warshak, 631 F.3d 266, 328 (6* Cir. 2010). But we review de novo the district
court’s “methodology for calculating” the loss and its interpretation of the
guidelines. Id.; United States v. Thomas, 933 F.3d 605, 608 (6th Cir. 2019). A
misinterpretation of a [***5] guideline can result in a procedurafly unreasonable
sentence. See, e.g., United States v. Stubblefield, 682 F.3d 502, 510 (6lil Cir. 2012);
cf. Rosales-Mireles v. United States, 138 S. Ct 1897, 1907-08, 201 L. Ed. 2d 376
(2018).
Here, the government did not attempt to meet its burden to prove the loss
from Riccardi’s theft by relying on factual evidence about the total amount that
Riccardi stole or the total harm that her victims suffered. Instead, the government
sought to meet its burden by relying on a legal rule that treats the “loss” for each
of the 1,505 gift cards as $500 even though most of the gift cards had values
averaging about
For whatever reason, the Commission opted to place its $500 minimum in
§ 2Bl.l’s commentary, not in § 2B 1.1. So Riccardi alternatively asserts that the
$500 minimum conflicts with § 2B1.L We agree. Commentary may only interpret
the guideline. And a $500 mandatory minimum cannot be described as an
interpretation of the word “loss.” Rather, it is a substantive legislative rule that
belongs in the guideline itself to have force.
We start with the basic differences between the guidelines [**12] and the
commentary. The Sentencing Reform Act of 1984, Pub. L. 98-473, Title II, ch. II,
98 Slat. 1987, tasked the Commission with creating “guidelines” that contain
sentencing ranges for various categories of offenses. 28 U.S.C. § 994(a)(1),
(b)(1); Stinson v. United States, 508 U,S. 36, 40-41, 113 S. Ct. 1913^ 123 L. Ed.
2d 598 (1993). These administratively adopted guidelines significantly affected
individual liberty because Congress required district courts to follow them when
choosing the length of a defendant’s prison term. 18 U.S.C. § 3553(b)(1); United
States v. ffavis, 927 F.3d 382, 385-86 (6* Cir. 2019) (en'hanc) (per curiam).
Congress thus included several procedural safeguards to act as a check on the
18

sentencing rules that the Commission put in the guidelines. Congress required the
Commission to submit the original guidelines [*484] for its review and to give it
six months to review all amendments. See Sentencing Reform Act, § 235(a)(1),
98 Stat. at 2031-32; 28 U.S.C. § 994(p). It also required the amendments to go
through notice-and-comment rulemaking. 28 U.S.C. § 994(x). And while the
guidelines have been only advisory since United States v. Booker, 543 U.S. 220,
125 S. Ct 738, 160 L. Ed. 2d 621 (2005), they still significantly affect individual
liberty because a court must use them as the initial benchmark for a proper
sentence. Havis, 927 E3d at 385.
Since the beginning, the Commission has also included “application
notes” in “commentary” that accompanies the guidelines. See, e.g., U.S.S.G §
2B1.1 cmt. nn. 1-8 (1987). An original guideline explained that this HN10
“commentary” “may serve a number [**13] of purposes.” Id. § 1B1.7. Among
other things, “it may interpret the guideline or explain how it is to be applied.”
[***9] Id. Yet the Sentencing Reform Act did not mention the “commentary,”
and later amendments have made only passing reference to it. Sentencing Reform
Act, 98 Stat. at 1987-2040; Stinson, 508 U.S. at 41 (citing 18 U.S.C. § 3553(b)).
To amend the commentary, then, the Commission need not follow the same
procedures that govern changes to the substantive rules in the guidelines
themselves (congressional review and notice-and-comment rulemaking). Havis,
927 E3d at 386. That fact led some circuit courts to hold originally that they were
not bound by the commentary’s interpretation of the guidelines. See Stinson, 508
U.S. at 39-40 & 40 n.2.
The Supreme Court rejected this view in Stinson. Analogizing to
administrative law, the Court viewed the guidelines as the “equivalent of
legislative rules adopted by federal agencies.” Id. at 45. And it viewed the
commentary as “akin to an agency’s interpretation of its own legislative rules.” Id.
It thus found that the commentary deserved the deference given to an agency’s
interpretation of its regulations—what was then known as Seminole Rock
deference but now goes bv Auer deference. Id.; see Auer v. Robbins, 519 U.S.
452, 461, 117 S. Ct. 905, *137 L. Ed. 2d 79 (1997); Bowles v. Seminole Rock &
Sand Co., 325 U.S. 410, 414, 65 S. Ct. 1215, 89 L. Ed. 1700 (1945). Applying
Auer’s test, Stinson held that the commentary’s interpretation of [**14] a
guideline “must be given ‘controlling weight unless it is plainly erroneous or
inconsistent with the” guideline. 508 U.S. at 38 (quoting Seminole Rock, 325 U.S.
at 414). Stinson added that the Commission could effectively amend a guideline
by amending the commentary so long as “the guideline which the commentary
interprets will bear the [amended] construction.” Id. at 46.
On its face, Stinson’s plain-error test seemed to require courts to give great
deference to the commentary. By way of analogy, the plain-error test that applies
to unpreserved arguments on appeal requires a legal error to “be clear or obvious,
rather than subject to reasonable dispute.” Puckett v. United States, 556 U.S. 129,
135, 129 S. Ct. 1423, 173 L. Ed. 2d 266 (2009). Unsurprisingly, then, we have
previously been quick to give “controlling weight” to the commentary without
asking whether a guideline could bear the construction that the commentary gave
it. See, e.g., United States v. Ednie, 707 F. App’x 366, 371-72 (6th Cir. 2017);
19

United States v. Jarman, 144 F.3d 912, 914 (6Ul Cir. 1998). Perhaps for this
reason, defendants have not previously “challengefd] the general validity” of the
$500 minimum loss amount at issue here. Gilmore, 431 E App’x at 430; see
Moon, 808 R3d at 1091.
Recently, however, the Supreme Court clarified Auer’s narrow scope in
the related [*485] context of an agency’s interpretation of its regulations. See
Kisor v. Wilkie, 139 S. Ct. 2400, 2414-18, 204 L. Ed. 2d 841 (2019). Kisor
acknowledged that the Court’s “classic” plain-error phrasing of Auer’s test
“suggested] [**15] a caricature of the doctrine, in which deference is
‘reflexive.’” Id. at 2415 (citation omitted). Yet Kisor cautioned that a court should
not reflexively defer to an agency’s interpretation. Before doing so, a court must
fmd that the regulation is “genuinely ambiguous, even after [the] court has
resorted to all the standard fools of interpretation” to eliminate that ambiguity. Id.
at 2414. The agency’s interpretation also “must come within the zone of
ambiguity the court has identified after employing all its interpretive tools.” Id. at
2416.
Should Kisor affect our approach to the commentary? We think so for both
a simple reason and a more complicated one. As a simple matter, Stinson
analogized to agency interpretations of regulations when adopting Seminole
Rock’s plain-error test for the commentary. 508 U.S. at 45. Stinson thus told courts
to follow basic administrative-law concepts despite Congress’s decision to locate
the relevant agency (the Commission) in the judicial branch rather than the
executive branch. See id.; cf.Mistretta v. United States, 488 U.S. 361, 384-85, 109
S. Ct. 647, 102 L. Ed. 2d 714 (1989). So Kisor’s clarification of the plain-error
test applies just as much to Stinson (and the Commission’s guidelines) as it does
to Auer (and an agency’s regulations). Indeed, Kisor itself cited Stinson as [** 16]
a decision applying Seminole Rock deference before Auer. Kisor, 139 S. Ct. at
24.11 n.3.
The more complex reason follows from Kisor’s response to a notice-andcomment concern raised by the challenger in that case. When asking the Court to
overrule Auer, the challenger argued thz.tA.uer allowed an agency to freely change
a legislative rule (a change that otherwise requires notice-and-comment
rulemaking) simply by changing its interpretation of the rule without using that
type of rulemaking. Id. at 2420. Kisor rejected the challenger’s premise—that an
agency could willy-nilly change a legislative rule simply by changing its
interpretation. Why? Precisely because of the limits that Kisor imposed: Before
deferring to the changed reading of the rule, a court must “first decide whether the
rule is clear; if it is not, whether the agency’s reading falls within its zone of
ambiguity; and even if the reading does so, whether it should receive deference.”
Id. In other words, Kisor’s limitations on Auer deference [***11] restrict an
agency’s power to adopt a new legislative rule under the guise of reinterpreting an
old one.
The same concern applies here, so Kisor’s response should too. See Ifavis,
927 E3d at 386. Only the guidelines (not the commentary) must go through
[**17] notice-and-comment rulemaking. 28 U.S.C. § 994(x). So if the
Commission could freely amend the guidelines by amending the commentary, it
20

could avoid these notice-and-comment obligations. The healthy judicial review
that Kisor contemplates thus will restrict the Commission’s ability to do so.
We are not alone in this conclusion. The en banc Third Circuit recently
adopted the same view. See United States v. Nasir, 982 F.3d 144, 158 (3d Cir.
2020) (en banc), it recognised that its pre-Kisor cases had upheld commentary
expanding the guidelines. Id. Yet these cases could not stand after Kisor, the court
found, because it “cut back on what had been understood to be uncritical and
broad deference to agency interpretations of regulations!)]” Id. As a concurrence
put it, Kisor must awake us “from our slumber of reflexive deference” to the
commentary. Id. at 177 (Bibas, J., concurring in part).
We thus do not immediately defer to Application Note 3(F)(i). Rather, we
first ask whether § 2B1.1 is “genuinely ambiguous.” Kisor, 139 S. Ct. at 2415.
Section 2Bl.l’s language tells courts to “increase the offense level” in
incremental amounts based on the amount of the “loss” (measured in dollars).
U.S.S.G § 2B1.1(b)(1). Where, as here, a legal text does not define a term, we
generally “give the term its ordinary meaning.” United States v. Zabawa, 719 F.3d
555, 559 (6th Cir. 2013); United States v. Sands, 948 F.3d 709, 713-14 (6<h Cir.
2020). And “dictionaries are [**18] a good place to start” to identify the range of
meanings that a reasonable person would understand a word like “loss” to have.
Zabawa, 719 F.3d at 559. One dictionary defines the word to mean, among other
things, the “amount of something lost” or the “harm or suffering caused by losing
or being lost.” American Heritage Dictionary of the Engl ish Language 1063 (3d
ed. 1992). Another says it can mean “the damage, trouble, disadvantage, for]
deprivation . . . caused by losing something” or “the person, thing, or amount
lost.” Webster’s New World College Dictionary 799 (3d ed. 1996). Athird defines
it as “the being [***12] deprived of or the failure to keep (a possession,
appurtenance, right, quality, faculty, or the like),” the “[djimunition of one’s
possessions or advantages,” or the “detriment or disadvantage involved in being
deprived of something!.]” 9 Oxford English Dictionary 37 (2d ed. 1989).
These definitions show that “loss” can mean different things in different
contexts. The word might include emotional harms, as in the statement that the
children “bore up bravely under the [loss] of both parents!.]” Webster’s Third
New International Dictionary 1338 (1986). Or it might include just economic
harms, as in [**19] the statement that my friend was “forced to sell all the stock
at a [loss].” Id. (Another part of § 2Bl.l’s commentary does, in fact, read § 2B1.1
as limited to economic harms. See U.S.S.G § 2B1.I cmt. n.3(A)(iii); Kozersld,
969 F.3d at 313.) Even in the economic realm, the word might cover only the
precise value of say, a gift card that is stolen (the “amount of something lost”).
American Heritage Dictionary, supra, at 1063. Or it might include the costs
associated with obtaining a replacement gift card, including the time and expense
from a second trip to the store (“the damage, trouble, disadvantage, [or]
deprivation . . . caused by losing something”). Webster’s New World College
Dictionary, supra, at 799.
In this case, however, we need not decide whether one clear meaning of
the word “loss” emerges from the potential options after applying “the ‘traditional
tools’ of construction” to § 2B1.1. Kisor, 139 S. Ct. at 2415 (citation omitted). No
21

matter the word’s meaning, the commentary’s $500 minimum loss amount for gift
cards does not fell “within the zone of [any] ambiguity” in this guideline. Id. at
2416; cf. MCI Telecomms. Corp. v. Am. Tel. & Tel. Co., 512 U.S. 218, 225-29,
114 S. Ct. 2223, 129 L. Ed. 2d 182 (1994). No reasonable person would define the
“loss” from a stolen gift card as an automatic $500. Rather, the “amount” of the
loss or “damage” to the victim from a gift-card theft in any case [**20] will turn
on such fect-dependent things as the value of the gift card or the costs of replacing
it. American Heritage Dictionary, supra, at 1063; Webster’s New World College
Dictionary, supra, at 799. This case proves the point. It is undisputed that 1,322 of
Riccardi’s stolen gift cards had total face values of $47,000 for an average value
of about $35. And the government identifies no evidence suggesting that the total
“damage” from this theft approached the $752,500 required [*487] by the
commentary’s mandatory $500 loss amount.
Our conclusion is reinforced by caselaw distinguishing “legislative rules”
(which must proceed through notice-and-comment rulemaking) from “interpretive
rules” (which need not proceed through that rulemaking) under the Administrative
Procedure Act. See generally Perez v Mortg. Bankers Ass % 575 U.S. 92, 95-97,
135 S. Ct. 1199, 191 L. Ed. 2d 186 (2015); 5 U.S.C. § 553(b). Precedent in that
context recognizes that a specific numeric amount like the $500 in this case
generally will not qualify as a mere “interpretation” of general nonnumeric
language. See Catholic Health Initiatives v. Sebelius, 617 F.3d 490, 495, 393 U.S.
App. D.C. 1 (D.C. Cir. 2010). An agency, for instance, did not simply “interpret”
a rule requiring parties to use “structurally sound” facilities to house dangerous
animals when it concluded that this rule mandated an eight-foot fence. See Hoctor
v. U.S. Dep’t ofAgric., 82F.3d 165, 169-71 (7th Cir. 1996). Rather, [**21] “when
an agency wants to state a principle ‘in numerical terms,’ terms that cannot be,
derived from a particular record, the agency is legislating and should act through
rulemaking.” Catholic Health Initiatives, 617 F.3d at 495 (quoting Henry J.
Friendly, Watchman, What of the Night?, in Benchmarks 144-45 (1967)).
The same logic applies here. The commentary’s bright-line $500 loss
amount cannot “be derived from [§ 2B1.1] by a process reasonably described as
interpretation.” Hoctor, 82 F.3d at 170. The Commission’s decision to adopt this
minimum loss amount was instead a substantive policy choice, one presumably
based on empirical factors like the difficulty of determining actual losses in cases
involving “access devices” or the “average” loss in those types of cases. Yet if the
Commission seeks to keep individuals behind bars for longer periods of time
based on this type of “fictional” loss amount, this substantive policy decision
belongs in the guidelines, not in the commentary. Lyles, 506 F. App’x at 445; see
Havis, 927 F.3d at 385-86.
****** * * * *

We end by flagging one issue that the government did not raise. It appears
that the Commission sent the amendment adopting this $500 minimum amount to
Congress for its review and added it to the commentary using notice-andcomment rulemaking. See 65 Fed. Reg. 26,880, 26,895 (May 9, 2000); 65 Fed.
Reg. 2663, 2668 (Jan. 18, 2000). Should we overlook that this $500 minimum sits
in the commentary given that the Commission may have met the procedural
22

checks required for it to amend the guidelines themselves? We [*489] think not.
By placing this loss amount in the commentary, the Commission has retained the
power to adjust it tomorrow without satisfying the same procedural safeguards.
See Stinson, 508 U.S. at 39-46. So the normal administrative principles should
apply. Under those principles, this $500 minimum loss amount for gift cards does
not "fell 'within the bounds of reasonable interpretation'" of § 2Bl.l's text. Kisor,
139 S. Ct. at 2416 (citation omitted). The district court thus should not have used
it.

We reverse Riccardi's 56-month sentence, dismiss her separate challenge
to the restitution order, and remand for resentencing consistent with this opinion.
United States v. Riccardi, 989 F.3d 476, 481, 485-87,490 (6th Cir. 2021)
Based on the foregoing and the conflict among the circuits as to the applicability of Kisor
to the Commentary and Application notes to the Sentencing Guidelines, this Court should
VACATE the Court of Appeals’ decision affirming Mr. Melkonyan’s appeal (Appendix A) and
REMAND to the Court of Appeals for reconsideration in light of this Court’s decision in Kisor v.
Wilkie, 139 S. Ct. 2400, 2416, 204 L. Ed. 2d 841 (2019).
This remand would likely not only result in Mr. Melkonyan’s resentencing within the
guideline sentencing range of 108-135 months instead of 210-262 months utilized by the district
court. This is because he would have been subjected to 16 levels enhancement under U.S.S.G §
2Bl.l(b)(l)(l) instead ofthe 22 levels enhancement of U.S.S.G § 2Bl.l(b)(l)(L) based on actual
loss of $1,418,959 instead ofthe enhanced loss of $500 per card totaling $59,956,500 as set forth
in U.S.S.G § 2B1.1, Commentary, Note 3(F)(i).
The remand would also dispel any lingering doubt in the lower courts that Kisor has
broad application not only to typical federal agency regulations but also to the special case of
interpretation of the Commentary and Application Notes of the Sentencing Guidelines found in
18 U.S.C. Appendix.

23

CONCLUSION
For all of the foregoing reasons, Petitioner Mihran Melkonyan respectfully prays that his
Petition for Writ of Certiorari be GRANTED and the case set for argument on the merits.
Alternatively, Petitioner respectfully prays that this Court GRANT certiorari, VACATE
the order affirming his direct appeal and REMAND9 to the court of appeals for reconsideration
in light of Kisor v. Wilkie, 139 S. Ct. 2400, 2416, 204 L. Ed. 2d 841 (2019).
Mihran Melkonyan
Petitioner
72465-097
P.O. Box 9
Mendota, CA 93640
Date:

9 For authority on “GVR” orders, see Lawrence v. Chafer, 516 U.S. 163, 167-68, 133 L. Ed. 2d
545, 116 S. Ct. 604(1996).
24

